STATE OF NEW YORK
OFFICE OF THE ATTORNEY GENERAL
LETITIA JAMES

BARBARA D. UNDERWOOD

ATTORNEY GENERAL

SOLICITOR GENERAL
DIVISION OF APPEALS & OPINIONS

March 19, 2021
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543-0001
Re:

Libertarian Party of Erie County, et al. v. Cuomo, et al., No. 20-1151
Request for extension of time

Dear Mr. Harris:
On behalf of all respondents in this case, I respectfully request a thirty-day
extension of time to prepare and file a brief in opposition to the petition for a writ of
certiorari. The current deadline for the brief in opposition is March 25, 2021. A
thirty-day extension would result in a deadline of April 26, 2021.
Petitioners’ counsel has stated that petitioners consent to this request.
Thank you for your consideration.

Respectfully submitted,
/s/ Barbara D. Underwood
BARBARA D. UNDERWOOD
Solicitor General
cc:

Michael Kuzma (counsel for petitioners)

28 LIBERTY STREET, NEW YORK, NY 10005-1400 • PHONE (212) 416-8020 • FAX (212) 416-8962 *NOT FOR SERVICE OF PAPERS
WWW.AG.NY.GOV

